                  United, tates Department of the Interior
                                O FF ICE OF I NSPECTOR G ENERAL
                                           Celllral Region
                                      134 Union .Blvd ., ui,e 510
                                     Lakowood. Colorado 80228
                                                            Report No. X-VS-MOA-0013-2009
                                                                          September 29, 2009


Memorandum

To:           Assistant Secretary for Policy, Management and Budget
               (Attention: Associate Director for Finance, Policy and Operations)

From:      ~ Jack Rouch ~l.C\ ~ u ~
              Regional Audit Manager

Subject:      Verification Review of Five Recommendations Considered Implemented from
              our February 2004 Audit Report "Fleet Management Operations, U.S. Department
              of the Interior" (Report No. C-IN-MOA-0042-2003)

         The Office ofInspector General (orG) has completed a verification review of the five
recommendations presented in the subject audit report. The objective of the review was to
determine whether the five recommendations were implemented, as reported by the Office of
Financial Management. Based on our review, we concluded Recommendations 1,2,4, and 5
were implemented as reported but that Recommendation 3 was not fully implemented (See
Appendix 1). The results of our review are summarized below.

Background

        Our February 2004 audit report, "Fleet Management Operations, U.S. Department of the
Interior," made five recommendations designed to assist the Department in improving its fleet
operations. On October 14, 2005, the Office of Financial Management (PFM) notified DIG that
Recommendation 1 had been implemented and closed. On June 29, 2007, PFM notified the orG
Recommendations 2 thru 4 had been implemented and closed. On November 9,2007, PFM
notified orG that based on the extensive work done by the Department; PFM considered the
intent of Recommendation 5 was met and closed the recommendation and the audit.

Scope and Methodology

        The scope of our review was limited to determining whether the Department
implemented the five report recommendations. To accomplish our objective, we requested and
reviewed supporting documentation submitted by PFM and the bureaus. We did not perform site
visits or conduct detailed fieldwork to determine whether the underlying deficiencies identified
in the original report had been corrected. This review was not conducted in accordance with
Government Auditing Standards issued by the Comptroller General of the United States.
One Recommendation Not Fully Implemented
          We concluded that Recommendation 3 was not fully implemented.

Recommendation 3: “Require the Department and its bureaus to plan, develop, and
implement a fleet management infrastructure that establishes and implements performance
measures that are appropriate to the mission of each vehicle; including mileage standards
where appropriate, and alternative measures to accommodate vehicles with specific missions.”

        Three bureaus submitted adequate supporting documentation in their response to the
original audit report. In response to our current request for additional information, five of the
remaining six bureaus provided their Fleet Management Plans which establish and implement
specific performance measures. However, the Bureau of Indian Affairs (BIA) indicated that it
had not performed any actions to establish and implement specific performance measures that
are appropriate to the mission of each vehicle. Because BIA has not implemented the
recommendation, we consider it not fully implemented.


Four Recommendations Implemented and Properly Closed
          We concluded that Recommendations 1, 2, 4, and 5 were implemented and properly
closed.

Recommendation 1: “Require the Department and its bureaus to plan, develop, and
implement a fleet management infrastructure that gives fleet managers authority over all fleet
decisions for:

¾ Right-sizing their fleets.

¾ Monitoring performance and taking necessary actions to ensure that vehicle usage is
  maximized.

¾ Evaluating the efficient use of vehicles with performance measures when making
  decisions regarding fleet composition.

¾ Periodically reporting on the status of the fleets.”

    The nine bureaus provided their Fleet Management Plans that gave fleet managers overall
authority, with others assisting in day to day operations. The plans contained information that
addressed: right-sizing, monitoring performance, evaluating efficient use, and periodic reporting.

Recommendation 2: Require the Department and its bureaus to plan, develop, and implement
a fleet management infrastructure that establishes and implements fleet management
information system(s) that capture and report all information necessary to manage the fleet
                                                 2 

 
such as:

¾ Inventory data.

¾ Performance data.

¾ Costs to operate.

¾ The ability to calculate efficiency measures.

¾ The ability to generate information necessary to meet all mandatory reporting
  requirements.”

    Three bureaus submitted adequate supporting documentation in their response to the original
audit report. In response to our current request for additional information, the remaining six
bureaus provided their Fleet Management Plans that established and implemented fleet
management information system(s) that capture and report all information necessary to manage
the fleet such as inventory and performance data, and the ability to calculate efficiency measures
and mandatory reporting information.

Recommendation 4: “Require the Department and its bureaus to plan, develop, and
implement a fleet management infrastructure that requires justifications to be prepared for
each vehicle based on mission requirements. These justifications should establish the required
fleet composition or a Baseline Authorization so that the fleet manager can resize the fleet
from its baseline as mission requirements change.”

        Three bureaus submitted adequate supporting documentation in their response to the
original audit report. In response to our current request for additional information, the remaining
six bureaus provided their Fleet Management Plans which required justifications to be prepared
for each vehicle in their fleet. The justifications are also used to establish baseline data for the
fleet.

Recommendation 5: “Require the Department and its bureaus to plan, develop, and
implement a fleet management infrastructure that requires that the Department and its
bureaus develop a plan to transition from capital appropriations to a vehicle acquisition
mechanism that is responsive, constant, and reliable. Where possible, use a working capital
fund in conjunction with leasing from GSA.”

        In response to our current request for additional information, PFM indicated that the
Bureau of Land Management, Bureau of Reclamation, and the U.S. Geological Survey use
varying degrees of working capital funds for fleet management operations. PFM also stated that
the analysis provided to the OIG in November 2007 is still applicable today. That analysis
concluded that a working capital fund was not practical for Department-wide implementation
and also was not practical or manageable for the remaining bureaus.


                                                 3 

 
Conclusion
        We communicated the results of this review to PFM on September 2, 2009. We consider
Recommendations 1, 2, 4, and 5 fully implemented and no further action is required. However,
we consider Recommendation 3 not fully implemented and request PFM reinstate it and ensure it
is implemented by BIA.

Responding to the Report
        We request that PFM provide a written response to this report by October29, 2009
indicating whether it reinstated Recommendation 3. If applicable, the response should provide
PFM’s reasons for not reinstating the recommendation. If you have any questions concerning this
memorandum, please contact me at 303-236-9243.
cc:    Associate Director, Office of Financial Management
       Audit Liaison, Department of the Interior
       Audit Liaison, Indian Affairs
       Focus Leader for Management Control and Audit Follow-up




                                              4 

 
                                                               Appendix 1


         STATUS OF PRIOR AUDIT REPORT RECOMMENDATIONS


    Recommendation          Status              Action Required

          1.             Implemented          No action Required

          2.             Implemented          No action Required

          3.               Resolved;       We are requesting that PFM
                        not implemented   reinstate the recommendation
                                               and ensure it is fully
                                              implemented by BIA.
          4.             Implemented          No action Required

          5.             Implemented          No action Required




                                     5 

 
